                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

                                                                                                 Page 1 of 2



            We were informed of an allegation of plagiarism.1 Allegedly a proposal2contained text copied
            fiom a patent.3 Through correspondence with the informant we learned that the proposal
            contained text that appeared to be copied fiom the patent and a paper.4

            After reviewing the patent and paper, we found that approximately 50% of the introduction
            appeared to have been copied from the patent and paper. In response to our inquiry, we learned
            that subject 1 had his new postdoc (subject 2) draft the proposal text and over a short period of
            time he revised the draft into a proposal. During his editing, subject 1 deleted subject 2's cross-
            references to the source documents. Although the two subjects variously attributed the copying to
            haste, cultural differences, and inexperience, they were both trained at US institutions. We
            referred this matter under 45 C.F.R. $ 689 to the institution6 for investigation.

           The university investigation committee concluded that neither subject committed research
           misconduct, rather their actions were best described a questionable research practices. After
           reviewing its report, we had a number of questions about its decisions with regard to subject 1 .
           and communicated those concerns to the interim University Intellectual Integrity ~ f f i c e r . ~
           Specifically, we were concerned about subject 1's failure to accept personal responsibility for the
           plagiarism, his failure to meet NSF expectations for high scholarship articulated in the Grant
           Proposal ~ u i d eand
                               , ~ his failure to acknowledge the postdoc as an author.

            In addition, we were concerned about the factual basis for the Authorized Organizational
            Representative's FastLane certification about the accuracy and completeness of the proposal
            contents. In the absence of certification fiom the original authors about its contents, it would
            appear there would be no basis for the AOR's FastLane certification.




      .      NSF Grant Proposal Guide, (NSF 04-23); 1.D3 page 13.



11'
  NSF OIG Form 2 (1 1/02)
s   -              - 2

             P'-    SC,
                                                         NATIONAL
                                                          OFFICE OFSCIENCE
                                                                   INSPECTOR
                                                                           FOUNDATION
                                                                             GENERAL

                                                            OFFICE OF INVESTIGATIONS

    $?q$$$j
        4
        0
            ON     rr"
                                                   CLOSEOUT MEMORANDUM

    Case Number: A03060034                                                                            Page 2 of 2



              Finally, we expressed concern that the institution's research misconduct policy did not articulate
              a level of intent required for a finding of research misconduct.

              In response to our questions the investigation committee clarified that it felt that the mechanism
              by which this proposal was developed meant that the plagiarism it contained did not meet the
              MSU hurdle for a finding of research misconduct. The university took steps to reinforce
              scholarship standards with subject 1 by developing a remedial training program for subject 1.
              The institution provided us with a copy of the training certificate and acknowledged that subject
              1's failure to credit the postdoc with authorship was inappropriate. In addition the institution
              committed to put further resources into training new faculty about responsible conduct of
              research.

              The university provided documentation showing that the subject signed a statement certifying
              that the statements in the proposal were true, complete and accurate and that he was aware that
              false or fraudulent statements could be subject to criminal, civil, or administrative penalties. We
              noted that this certification appears in the institution's financial conflicts of interest form not the
              form transmitting the proposal. We have urged the institution to place this certification on the
              transmittal form.

              We concluded that the issues raised in this case hail been adequately addressed. This case is
              closed.
